HHS/OIG, Audit -"Audit of Medicaid Family Care Administrative Costs Claimed For the Period October 1, 1999 Through
December 31, 2002 - Wisconsin Department of Health and Family Services, Madison, Wisconsin,"(A-05-03-00067)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Family Care Administrative Costs Claimed For the Period October 1, 1999 Through December 31,
2002 - Wisconsin Department of Health and Family Services, Madison, Wisconsin," (A-05-03-00067)
June 30, 2004
Complete
Text of Report is available in PDF format (513 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether administrative costs claimed by the State agency
for the Medicaid Family Care waiver program were identified and separately reported, properly allocated, and reasonable
and allowable.  Although the State agency generally exercised adequate control over administrative costs claimed amounting
to $10.2 million (Federal share), it needs to improve (1) segregating and reporting of waiver administrative costs, (2)
updating of county cost allocation rates for information and assistance costs, and (3) screening for unreasonable and unallowable
county expenditures.  We also recommended financial adjustments for unallocable and unallowable costs totaling $129,663
(Federal share).  State agency officials generally concurred with the recommendations, except for separate reporting
of administrative costs by waiver program.